Department of Homeland Security
   Ofﬁce of Inspector General


            NPSC Preparedness for 

             Large-Scale Disasters 





OIG-10-81                              April 2010
                                                                  OjJice ofInspector Generaf

                                                                  U.S. Department of Homeland Security
                                                                  Washington, DC 20528




                           APR 15 2010

                                           Preface

The D<:lpartment of Homeland Security Office of Inspector General was established by
the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports
prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report identifies measures that can be taken by FEMA to address the overall
effectiveness and performance of its National Processing Service Centers. It is based on
interviews with employees and officials of relevant agencies and institutions, direct
observations, and a review of applicable documents. We contracted with the independent
public accounting firm Williams, Adley & Company, LLP to perform the audit. The
contract required Williams, Adley & Company, LLP to perform its audit according to
generally accepted government auditing standards. Williams, Adley & Company, LLP is
responsible for the attached report and the conclusions expressed in the report.

The recommendations herein have been developed to the best knowledge available to our
office, and have been diS,cussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all those who contributed to the preparation of this report.

                                           ~,
                                           Matt Jadacki
                                           Deputy Inspector General
                                           Office of Emergency Management Oversight




                          NPSC Preparednes.~ for Large Scale Disasters
Table of Contents/Abbreviations 


Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................2 


    Surge Planning ...............................................................................................................3 


    Surge Response...............................................................................................................4 


    Operational Challenges...................................................................................................7
 


    Strategic Opportunities ...................................................................................................8 


    Recommendations...........................................................................................................9 


    Management Comments and OIG Analysis .................................................................10 


Appendixes
  Appendix A: Purpose, Scope and Methodology............................................................11 

  Appendix B: Management Comments to the Draft Report ...........................................12 

  Appendix C: Report Distribution...................................................................................17 


Abbreviations
     DHS                 Department of Homeland Security 

     FEMA                Federal Emergency Management Agency 

     IRS                 Internal Revenue Service 

     NPSC                National Processing Service Center 





                                       NPSC Preparedness for Large Scale Disasters
OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                Williams, Adley & Company, LLP reviewed the National
                Processing Service Centers’ (NPSCs) preparedness to meet
                staffing requirements and handle an increased volume of inquiries
                and applications during large-scale disasters.

                The NPSCs are improving their capacity to provide services during
                large-scale disasters, but several systemic barriers continue to
                require management attention. The NPSCs have enhanced their
                ability to meet staffing and training requirements through detailed
                staffing forecasts, surge planning, greater internal coordination,
                standardized training, and upgraded information systems.
                Enhanced human capital management practices have produced
                capable staff and measurable performance improvements, which
                were demonstrated in the organizational response to Gustav and
                Ike.

                Concerns remain regarding the length of time needed to obtain
                security clearances for temporary staff, and the operational
                challenges of managing workspaces, equipment, and personnel
                during surges in workload. In particular, the use of inexperienced
                staff requires a flexible and innovative approach to training,
                knowledge acquisition and sharing, and performance management.

                A longer-term strategic challenge is to facilitate a reduction in call
                volume and potentially result in more accurate information through
                greater on-line registration, mobile disaster recovery centers, and
                advanced technology.

                We recommended that FEMA assess options for building NPSC
                surge capacity, improve training and staff development, and
                modify contracts and interagency agreements to improve
                administration and security processes. FEMA concurred or
                partially concurred with all recommendations.




                    NPSC Preparedness for Large Scale Disasters
 


                                      Page 1
 

Background
                          The Federal Emergency Management Agency operates three
                          National Processing Service Center (NPSC) facilities located in
                          Denton, TX, Hyattsville, MD, and Winchester, VA. A fourth
                          NPSC in San Juan, Puerto Rico, closed in April 2009.

                          The NPSCs are call centers through which individuals register for
                          federal disaster assistance following presidentially-declared
                          disasters. NPSC Human Services Specialists (agents) accept calls
                          from disaster applicants and enter information into the National
                          Emergency Management Information System and other FEMA-
                          approved databases 1 . The caller data is used by FEMA and
                          transmitted to the other disaster assistance providers, including the
                          US Small Business Administration and the US Department of
                          Housing and Urban Development as applicable. NPSCs perform a
                          range of functions related to application processing, identity
                          verification, case management, appeals, and recoupment. The
                          NPSCs are central to the success of the applicant telephone
                          registration process and the FEMA Helpline.

                          The hub of the call center activity is the Applicant Services
                          Section, which consists of approximately 900 employees who
                          perform registration intake, helpline, case processing, appeal, and
                          recoupment functions. Managers and supervisors oversee floor
                          operations and are responsible for both technical and
                          administrative supervision, providing staff coaching, mentoring,
                          monitoring, reviews, and feedback on a daily basis.


Results of Audit
                          The NPSCs are improving their capacity to provide services during
                          large-scale disasters, but several systemic barriers continue to
                          require management attention. The NPSCs have enhanced their
                          ability to meet staffing and training requirements through detailed
                          staffing forecasts, surge planning, greater internal coordination,
                          standardized training, and upgraded information systems.
                          Enhanced human capital management practices have produced
                          capable staff and measurable performance improvements, which
                          were demonstrated in the organizational response to Gustav and
                          Ike.

1
 Other databases include the Applicant Issue Form, Relocation Assistance Application, and the Continued
Assistance Calculator, among others.

                              NPSC Preparedness for Large Scale Disasters

                                                 Page 2
          Concerns remain regarding the length of time needed to obtain
          security clearances for temporary staff, and the operational
          challenges of managing workspaces, equipment, and personnel
          during surges in workload. In particular, the use of inexperienced
          staff requires a flexible and innovative approach to training,
          knowledge acquisition and sharing, and performance management.

          A longer-term strategic challenge is to facilitate online registrations,
          which would reduce call volume and potentially result in more
          accurate information.


Surge Planning
          Effective surge planning is critical to the NPSC staffing process.
          The NPSC Enterprise Agent Coordination Team (E-ACT) at the
          Denton, TX, NPSC, is the primary entity responsible for
          determining, following a Presidentially-declared disaster, whether
          the surge plan should be activated. Fortunately, activation is rare;
          in the four years following Katrina and Rita, only two out of 108
          Presidentially-declared disasters, Gustav and Ike, required a surge
          in NPSC capacity.

          The E-ACT team has over ten years of experience in developing
          these forecasts, which are based on an integrated assessment of the
          following data elements:
          �	 Disaster type and incident
          �	 Census data on households and population
          �	 Historical FEMA data from prior disasters within the same
             geographic area
          �	 Historical FEMA data provided in support of state and county
             forecast needs
          �	 Information gathered from government agencies, public media,
             and news organizations
          �	 Information from the Preliminary Damage Assessment Report,
             if available at the time the forecast is prepared.

          In terms of comparison, while Gustav and Ike were considered
          major disasters, they did not generate the registration volume of
          Katrina and Rita. Table 1 documents the registrations by type for
          these storms:

              NPSC Preparedness for Large Scale Disasters

                                Page 3
                         Table 1. Registration Comparison for Gustav/Ike vs.
                         Katrina/Rita

                                                           1 (800)
                                            Total          Phone      Phone     Internet       Web
                          Disaster          Reg             Reg       Reg %       Reg         Reg %

                          Ike 2             787,567        279,649        36%    507,920        64%

                          Gustav            446,685        187,820        42%    258,865        58%

                          Totals         1,234,252         467,469        38%    766,785        62%

                          Katrina/Rita   1,693,102         944,038        56%    749,064        44%

                         Source: 10-year Historical Data Tracking maintained by Texas NPSC.

                         Since Katrina and Rita, the E-ACT’s accuracy in forecasting
                         registrations and thus estimating workforce needs has improved.
                         The Katrina/Rita forecasted registrations were 53 percent of the
                         actual registrations received. The Gustav and Ike forecasted
                         registrations were 99% of the actual registrations.


        Surge Response
                         The FEMA strategic plan states that an overarching theme is to
                         provide a “professional workforce of motivated employees who are
                         empowered and equipped to act.” All personnel need to possess
                         and maintain a level of competence that allows them to accomplish
                         their assigned duties. The challenge for NPSC management is to
                         build additional workforce capacity that meets these standards
                         rapidly and efficiently during surge periods.

                         Based on the required staffing levels developed in the surge plan
                         described above, NPSC management accesses three pools of
                         temporary call center employees: selected federal agencies,
                         contractors, and the public at large. In the case of Gustav and Ike,
                         the NPSC workforce temporarily doubled in size, from 900 to over
                         1700 employees. The additional staff were contractors and IRS
                         employees temporarily detailed to FEMA. The IRS employees did
                         not physically relocate to the NPSCs, but instead handled incoming

2
 Katrina and Rita were declared August 29, 2005, and September 24, 2005, respectively. Gustav was
declared September 2, 2008 in LA and September 22, 2008 in MS. Ike was declared September 13, 2008.

                              NPSC Preparedness for Large Scale Disasters 


                                                Page 4 

       calls that were re-routed to their current duty stations. The NPSC
       Contract Management Oversight Section sends trainers and IT staff
       to the IRS locations to prepare them for the surge.

       The NPSCs have used contractors of varying sizes to provide
       temporary staffing during Katrina, Rita, Gustav, and Ike. The
       contractors provide the staffing and supervisors as appropriate for
       the number of agents. The NPSCs provide adjudication for
       security clearances, training, work spaces within NPSCs, and
       quality control. The contractors provide supervisors, but most of
       the quality control information flows through the NPSC
       supervisors to the contractor supervisors via the NPSC contracting
       technical representative. One contractor provided training at its
       facilities and established a satellite location during Katrina.

       The demand for NPSC call center employees spikes shortly after a
       disaster. During a surge, registration intake call volume spikes
       immediately following a disaster declaration and begins to taper
       off after several weeks. Applicants then begin calling FEMA’s
       helpline to change information initially provided or to seek
       information on the status of an application. Table 2 illustrates call
       activity and service levels following Gustav and Ike. Service levels
       reflect the percentage of calls that were answered within targets of
       80% for registration intake and 70% for helpline, i.e., 80% of the
       intake calls answered within 20 seconds and 70% of helpline calls
       answered within 120 seconds.

Table 2. Service Levels During Gustav and Ike
       Date              Helpline       Helpline      Registration   Registration
 September to            Service         Calls         Intake Svc     Intake Call
 November 2008            Level         Offered           Level        Volumes
 September 1–7            19.7%          59,801           8.7%         227,096
 September 8–14            0.6%          140,934          23.0%        132,991
 September 15–21           0.0%          166,698          9.0%         276,685
 September 22–28          20.0%          177,634          62.0%        69,960
 Sept 29 – Oct 5           0.9%          171,885          90.0%        27,857
 October 6–12             11.0%          157,487          97.0%        31,509
 October 13–19            18.9%          148,856          95.7%        42,672
 October 20–26            30.1%          140,860          92.1%        39,597
 Oct 27 – Nov 2           28.0%       125,989          95.0%           25,765
Source: Resource Performance Summary Data maintained by Texas NPSC.


            NPSC Preparedness for Large Scale Disasters

                              Page 5
Immediately after the disasters, the NPSCs experienced major
staffing shortages due to security constraints for contractors, which
affected the centers’ responses to service calls. However, by the
fourth week, progress was made as call volume decreased and
external support had been added. Consequently, the NPSCs’
registration intake service levels increased. Helpline service levels
did not increase as quickly because the NPSCs focus most
resources on registration intake for the initial four to six week
period following a disaster.

The NPSCs face a number of challenges in preparing new
employees to handle the demands of the job.

Applicants are required to pass a proficiency test with a score of
85% as a condition of employment. Training policies and
procedures have been established to provide refresher and ongoing
training to staff, contractors, and IRS agents, but these policies are
not consistently implemented. For example, during Gustav and
Ike, the proficiency test passing rate was reduced from 85% to
75%, but the number of times that a person could take the test was
unchanged. However, the implementation of this policy change
varied between NPSCs.

The lack of a centralized training approach is another challenge.
Multiple systems and tracking inconsistencies complicate efforts to
monitor employee development of skills and competencies.
Development of a centralized training database would allow
FEMA to maintain accurate information on training.

According to staff, while specialized and refresher training is
provided, the courses are compressed during surge periods. As a
result, new or rehired agents may have difficulty keeping up with
important policy changes. In an attempt to address knowledge
retention, information is placed on the intranet, which is available
to all agents. However, there is no easy way to search various
sources and documents because of the limited search capabilities
provided.

The NPSCs are working to address this issue and are developing a
streamlined approach for storing information. Gustav and Ike
required “hot seating,” which is a method to replace an agent with
another as soon as the shift is over. Without time to refresh or get
updated on changes, the quality of service and average handle time
of agents may be affected.

    NPSC Preparedness for Large Scale Disasters

                      Page 6
           Most learning is on the job. To assist agents with questions,
           research, policy, problem-solving, etc, an enterprise-wide solution,
           the National Coordination Team Agent Group, was formed.
           However, per the NPSC managers the group’s assistance is not
           always timely and thus loses its effectiveness.

Operational Challenges
           Sufficient and appropriate staffing is vital to the NPSCs’ ability to
           carry out their missions during large disasters. The ability to
           manage the staffing requirements of the complex environment of
           the NPSCs is challenging. Management must constantly assess the
           staffing requirements based upon the cyclical workload, the
           official status of the employees, and legislative requirements.

              �	 Approximately 600 call center employees were released
                 because of a decrease in work on 2006. In addition, in
                 some NPSC locations it is not cost-efficient to maintain an
                 on-call cadre of government or contractor resources due to
                 the infrequency of surge events.

              �	 Many of the positions in the call centers are Not-To-Exceed
                 (NTE) 2 or 4 year positions.

              �	 In 2009, approximately 300 NTE 4 year positions were
                 converted to full-time positions in response to Post Katrina
                 Emergency Management Reform Act of 2006 guidelines.
                 The NTE 4 year personnel are generally supervisors and
                 managers who were required to recompete for their jobs.

           Beyond these staffing issues, there continue to be a number of
           operational and strategic challenges that require consistent
           management focus and attention. The most important of these are
           outlined below.

              �	 Surge periods impose additional pressure on an already
                 high ratio of agents to supervisors; for example, during a
                 surge, the ratio of staff to front-line supervisors can reach
                 100:1; in contrast, standard industry supervisory ratios in
                 large call centers typically range from 10:1 to 20:1.

              �	 Policy decisions are not consistently communicated to
                 agents in a timely manner, which results in agents
                 providing inaccurate information to applicants. This

               NPSC Preparedness for Large Scale Disasters

                                 Page 7
                  situation appeared to improve during and following Gustav
                  and Ike, when the NPSCs used a combination of video
                  teleconferences, email, pre-shift meetings, and scrolling
                  electronic messages to convey key information.

              �	 DHS’ security requirements make it difficult for the NPSCs
                 to rapidly augment their staff when needed. New hires are
                 required to undergo a suitability assessment which involves
                 completing a security form and a fingerprint card that are
                 processed by the FBI. This process adds at least 4 days to
                 the staffing timeline. There does not appear to be a surge
                 in security capacity to keep up with the requirements of
                 rapid security clearances during a major disaster.

              �	 The NPSCs may lack the physical space to house additional
                 personnel during a surge. Since facilities are leased, the
                 NPSCs must work with landlord restrictions, such as the
                 non-use of open spaces, heat, ventilation, and air
                 conditioning services.

              �	 The NPSCs’ ability to research and implement potentially
                 useful technologies such as Computer Telephony
                 Integration (CTI) is limited because NPSC funding is
                 generally tied to the size and frequency of disasters.

              �	 NPSC managers do not systematically assess and document
                 “after action” reports that review the strengths and
                 weaknesses of NPSC strategies and operations in order to
                 plan future improvements.


Strategic Opportunities
           There are several strategic opportunities for the NPSC to develop
           the capability to respond more forcefully and effectively to future
           major disasters.

           The deployment of human capital assets could be improved
           through enhanced workforce planning. Although the NPSCs have
           general surge plans in place, there would be a benefit from
           analyzing the costs, benefits, performance requirements and
           indicators, and other factors that could inform and guide future
           staffing decisions, especially given the blended NPSC workforce,
           comprised of FEMA, other federal, and contractor employees.


               NPSC Preparedness for Large Scale Disasters

                                 Page 8
       FEMA would benefit by reducing the number of incoming calls
       from individuals who are not eligible for assistance. A 2008
       customer survey indicated that only 50% of applicants were
       ultimately deemed eligible. Applicants said that having access to
       timely and relevant information would have allowed them to make
       better choices regarding other assistance programs, consequently
       reducing NPSC call volume and future staffing needs.

       State and local awareness campaigns should be used to convey
       information about the specific assistance offered; eligibility
       criteria; and the registration options of telephone, Internet, and the
       mobile disaster recovery centers. Online registration information
       should be displayed and communicated as prominently as the
       information about the toll-free telephone number, to increase the
       use of online registration tools.

       Finally, the timeliness and accuracy of NPSC call responses could
       potentially be improved through technology upgrades. NPSC
       management wants to enhance the current systems so that
       automated telephone intelligence can be used to reduce the need
       for additional staff. An increase in “self-help” options available on
       the telephone and the use of CTI technology could result in shorter
       calls and consistent service levels. The cost benefit ratio of new
       technology should be examined.


Recommendations

We recommend that the Administrator, Federal Emergency Management
Agency:

Recommendation #1: Assess the feasibility and cost-effectiveness of
various options for enhancing the NPSCs’ capacity for handling surge call
volumes, including, but not limited to:
       a) Expanded deployment of technology support tools such as
           computer telephony integration,
       b) Expanded use of mobile registration centers,
       c) Expanded use of current DHS and FEMA staff to provide
           short-term on-call response support,
       d) Enhanced public awareness campaigns with an emphasis on
           promoting online registrations, and
       e) Development of a cadre of on-call contractor resources




           NPSC Preparedness for Large Scale Disasters

                             Page 9
Recommendation #2: Improve the quality and consistency of training
and staff development for supervisors and agents through:
        a) implementation of a centralized training approach and database
            for use by all NPSCs
        b) establishment of consistent training requirements for
            employees and contractors
        c) identification and deployment of qualified temporary
            supervisors during surge periods
        d) consistent and timely communication of policy changes

Recommendation #3: Identify and implement modifications to contracts
or inter-agency agreements to address critical administrative aspects of
surge requirements such as the need for increased security personnel to
handle adjudications, and overflow space.

Management Comments and OIG Analysis
Appendix B contains a copy of the written comments we received from
the FEMA Director, Office of Policy and Program Analysis. FEMA
concurred with Recommendations #2 and #3, and with parts of
Recommendation #1.

We agree with FEMA’s responses. As far as Recommendation #1, we
listed a number of potential options for enhancing the NPSCs’ capacity for
handling surge volume, but it was not our intent for FEMA to implement
all of them as a group. We concur with FEMA’s reasoning for not
expanding use of mobile registration centers or current DHS and FEMA
staff to provide short-term on-call response support.

FEMA’s response to Recommendation #2 outlined approaches underway
to implement a centralized training approach and database, establish
consistent training requirements, identify and deploy qualified temporary
supervisors during surge periods, and communicate policy changes timely
and consistently. We agree with these approaches, but we consider this
recommendation open until we are provided evidence of the specific
actions taken and results achieved.

FEMA’s response to Recommendation #3 indicated that a new
interagency agreement with the IRS addresses administrative and security
concerns we noted during the audit. FEMA also outlined several steps
underway to improve the security check processes that at times function as
a barrier to timely deployment of surge staff. We agree with the outlined
steps and will consider this recommendation open until we are provided
evidence of implementation and results achieved.

           NPSC Preparedness for Large Scale Disasters

                            Page 10
Appendix A
Purpose, Scope, and Methodology

                   The objective of this audit was to determine the extent to which
                   FEMA’s NPSCs are prepared to meet staffing requirements and
                   address increased volume of inquiries and applications during
                   large-scale disasters. Specific areas we examined in the course of
                   this audit included:

                           �	 Staffing mix and levels
                           �	 Utilization of permanent and temporary FEMA staff,
                              other federal agency personnel, and contractors
                           �	 Training and employee development
                           �	 Achievement of key customer service and call quality
                              performance metrics

                   We conducted work at FEMA Headquarters and at the three
                   NPSCs responsible for assisting disaster victims. We analyzed
                   data, reviewed documentation, interviewed key personnel, and
                   observed call center processes.

                   We conducted our fieldwork between January and April 2009 in
                   accordance with Generally Accepted Government Auditing
                   Standards, 2007 Revision, as prescribed by the Comptroller
                   General of the United States.




                       NPSC Preparedness for Large Scale Disasters
 


                                         Page 11
 

Appendix B
Management Comments to the Draft Report




                                                                                       u •. u.·......._      ., 11_....   s.aril~

                                                                                       ~t     sam..sv.
                                                                                       .",........ uc::om

                                                                          .-~
                                                                          ~..,..
                                                                            '~
                                                                                       FEMA
                                                 lIAR     3<1Jl1


        MEMORANDUM FOR:                 Matt Jadacld
                                        Deputy Inspector Gcm:n.1
                                        Office of Emergency Management Oversight
                                        Office of Inspector General

        FROM:                   ~ Da\~d J.
                                        Director
                                                 Kaufman     ~1fJ
                                        Office of Policy and Program Analysis

        SUBJECf:                        Comments on OIG Draft Rcpon, NI'SC Preparcdn~ulQrLorg~·
                                        Scale Disaslers

       Thank you for the opportunity to reviC\". and comment on the Officc of Ins~:ctor Gencral's
       (O[G's) subject draft audit report. As the Fcdt:ra[ Emcrgenc;y Managom:m Agenc;y (FEMA)
       works toward refining its programs, the OIG's independent analysis of program performancc
       greatly benefits our ability to rontinuously improve our ae;tivities.

        FEMA concurs with two ofthc draft rt'Jl'Orl's three recommendations and non-concurs in pan
        with one of the rccommendations. Our rc:lflOnst'S to the recommendations. including our reasons
        for non-concurrence are as follows:

       Recommendation I: Ilssess Ihe/easibilil)' amI COSI-I'J!eelil'ClIl'ss ollY/rimlS opliolls[or
       ('II/loneillg I/le NI'SCs' C(I!X/Cilylor handling slIrge mil I'olllllles, inelllding. bill 1101 fimiled 10:
       aj t'-xpmrded lleplo)'lIIem oflecJmology SIlPP0J'/ 1f)()1~' slIch (IS compUlt'r le/ephony ill/egl'll/ion;
       hj EJ"J(m(/ed lise o/mobile regislmlioll eCI/ICrS: c) Expanded lise 0/ Cllr/"CIII DHS and FE/lfA
       StaJ!IO prOl'ide ShOI'/~lel'm ou-callresponsc supporl: dj Enhanced public a\l"{//'cncss compaigns
       willi lll/ cmplrasis 011 prOll/ali'lg o"fiuc regis/roliom-: ami cj DCI'/!lopmCIII Ofll cadre ofOll-cllf/
       cOII/raClor resources.

        Ruponse:
       oj f.)..,xwded deploymcnl o/lee/lll%ID' suppa'" fools sucll as COlll/,II/CI' lefcpltOlry inlcgmliol1:

       fEMA concurs with this part of the rt"COmnl<."1Hlation. fEMA has lx.-cn working on several
       computer telephony integration projectS to allow capture of critical applicant information
       through prompts on our Interactive Voice Response (IVR) platfonn. The [VR would then pass
       the: data to our registl'1ltioll module, which would pro-popullltc the registl'1ltion sa=ns with
       applicant data. saving signific:aIlt time. This projcct will be defined in 2010 and iflhc IVR
       prototype is a success. implementation could begin in 201 I, pending budgetary approval. In



                                                                                       ..·..... r~m •.ll".




                                 NPSC Preparedness for Large Scale Disasters
 


                                                         Page 12
 

Appendix B
Management Comments to the Draft Report




       Page 2

       the interim, FEMA has worked with Le;ltis-Neltis, our data validation vendor, on pre-population
       of registration data to the call center. Pre-population of applicant names, addresses and phone
       numbers was implemented in 2008. FEMA is working with the vendor to begin pre-populating
       insurance and vehicle dala. Pre-population through the identity verification contract also results
       in reduced time to complete registrations, thereby increasing our capability ortaking
       registrations.

       b) Expanded use ofmobile regiSlration centers;

       FEMA does not concur with lhis part orlhe recommendation as a means ofeltpanding our ability
       to take a significant number of registrations. During the first few weeks of a disaster using
       mobile registration centers we often find lhat those who visit the mobile registration centm have
       already registered and are seeking information about the status of their application or other
       programs and services.

       c) Expanded use ofcurrenl DHS and FEMA slafflo proVide short-term on-eafl response support;

       FEMA does not concur with this part of the recommendation. The NPSC has previously
       attempted to use other FEMA and Department of Homeland Security (DHS) staff to supplement
       OUT agent capacity, but the results have not been satisfactory. Other FEMA and DHS
       components have their own role in disaster response and recovery that makes the bulk of their
       staff unavailable at the time we would need them. Additionally, in the past, supplemental staff
       was only available on a volunteer basis, which further limited the number of staff we could add
       to our call centers.

       In 2006, the DHS Human Capital Division invited employees from other DHS components to
       volunteer at the NPSCs to take Registration Intake calls during large disasters. FEMA received
       fewer than 30 volunteers for this assignment. Unless other DHS components and DHS
       leadership directly assign a large number of staff to support FEMA during a disaster response,
       we do not believe that DHS staff will improve our ability to take a significant number of
       registrations, and that our resources are better applied to obtaining temporary staff through a
       contract.

       d) Enhanced public awareness campaigns with an emphasis on promoting online registrations;

       FEMA concurs with this part of the recommendation and will discuss with the Office ofElttemal
       Affairs stronger messaging 10 the public about the availability of online registration. Since
       FEMA's Internet registration module was deployed in 2004, FEMA's standard outreach effort in
       declared areas has included messaging to applicants about the ability to apply on-line. In
       addition, applicants who enter OUT IVR system to register with a phone agent are advised that
       they can apply on-line. It is evident that the public is aware of the ability to apply online; in
       disasters declared since May 2008, we have taken approximately 54% ofall registrations over
       the Internet. During Hurricanes Gustav and Ike, 62% of lolaI registrations were taken on the
       Internet.




                               NPSC Preparedness for Large Scale Disasters
 


                                                    Page 13
 

Appendix B
Management Comments to the Draft Report




       Page 3

       e) Development ofa cadre ofon-call contractor resources.

       FEMA concurs with this part of the recommendation and is prepared 10 support use of private
       sector temporary staffing contracts to perform registration intake duties. An acquisitions
       package has been submitted for securing staffing services using an existing DHS contract. By
       using the DHS Program Management, Administralive, Clerical, and Technical Services
       (PACTS), the NPSCs eltpecl to improve NPSC readiness should disaster activity elteeed current
       capability. The NPSCs continue to seek funding for this contractor resource.

       In addition to private sector temporary slaffing contracts, FEMA has maintained a long-tenn
       relationship and Inter-Agency Agreement with the Internal Revenue Service (IRS) to provide
       call center staff in support of large disasters, and the NPSCs have maintained a cadre with
       eltperience in performing registrations who are available for call-back in the event of a disaster.

       The Housing Inspection Services contraci is cWTently being re-written for a new award in 2011.
       The current draft of the contraci includes a requirement for each contractor to provide call center
       staff. The current contract provides the ability to write a task order for each contractor to provide
       staff to the NPSC.

       Recommendation 2: Improve the quality and consistency oftraining and staffdevelopmentfor
       supervisors and agents through: a) implementation ofa centralized training approach and
       databasefor use by all NPSCs; b) establishment ofconsistent training requirementsfor
       employees and contractors; c) identification and deployment ofqualified temporary
       supervisors during surge periods: and d) consistent and timely communicalion ofpolicy
       changes.

       Response:
       aJ Implementation ofa centralized training approach and databasefor use by all NPSCs;

       FEMA concurs with this recommendation and has already taken steps to address this. A new
       section has been established at the Teltas-NPSC that is responsible for a centralized approach to
       training. The new Training, Applicant Suppon and Communications (TASC) seclion is
       chartered to oversee improving and aligning training with NPSC objectives. The NPSC is also
       refining a centralized database (ePDS) that will be a secure single repository for all staff training
       and development records. This database is scheduled for the training data upgrade on June I,
       2010.

       b) Establishment ofconsistent training requirements for employees and contraclors;

       FEMA concurs with this recommendation and has already taken steps to address this. All call
       center staffhave the same basic job description and conditions of employment, which includes
       successful completion of Registration Intake Computer Based Training (RI CBT). Upon
       contract award for call center support, the RI CST will be provided to the contractors, and
       contractor staff will be required to successfully complete the CBT. The same scoring standards




                               NPSC Preparedness for Large Scale Disasters
 


                                                      Page 14
 

Appendix B
Management Comments to the Draft Report




       Page 4

       will be applied to contract and FEMA staff in order to detennine whether they are ready to
       perform registration duties.

       c) Identification and deployment oJquolified temporary supervisors during surge periods;

       FEMA concurs with this recommendation and has already taken steps to address this. FEMA
       will require the contractor to provide qualified supervisors to support their contracted staff, and
       FEMA would also provide subja:t matter experts to support the contractors.

       d) eOllSistent and timely communication oJpolicy changes.

       FEMA concurs with this recommendation. FEMA is currently overhauling the Individual
       Assistance Content website where the majority of policy information is stored. This will provide
       better access to infonnation, whether changed or not. to our caseworlc: and contract staff through
       improved search capability and beller functional design. In addition, FEMA is working to
       improve the help text available within our registration and other National Emergern;y
       Management Information System (NEMIS) modules. These help texIS can be modified to
       include changed policy and other information and can provide information to our call center staff
       without them having to navigate to an external site. We have developed a new Processing
       Procedure Manual that is a comprehensive guide to all processing procedures to ensure that
       agents have the most important and current information about policies readily available. It will
       be available on the Intranet for full access by our agents and other FEMA personnel.

       Recommendation 3: Identify and implement any required modifications to existing or planned
       contracts or inter-agency agreements to ensure that critical administrative aspects ofsurge
       requirements are addressed. such as the needJor increased security personnel to handle
       adjudicatiollS and the availability oJadditional workspaces.

       Response: FEMA concurs with this recommendation. An Inter-Agency Agreement with the
       IRS has been developed to address the administrative and security concerns. New solicitations
       for contracted staff will includc requirements for offerors to address and plan for the
       administrative and security overhead.

       In addition, we are working 10 improve the security check processes. We have discussed the
       concern about the logistical difficulty of hiring and adjudicating personnel with FEMA Security
       personnel, and have also obtained equipment for use at the NPSCs in order to expedite obtaining
       fingerprints. We will continue to have discussions about the timeliness of the adjudication
       process for background checks with FEMA security. In addition, we have actively participated
       on a Contractor Surge Capability Task Force established specifically 10 improve processes and
       procedures to implement a responsive (timely and effective) contractors' surge capability for
       large-scale and catastrophic disasters. The majority of recommendations resulting from this Task
       Force are directly related to the improvement of personnel security practices.




                               NPSC Preparedness for Large Scale Disasters
 


                                                      Page 15
 

Appendix B
Management Comments to the Draft Report




        Page 5

        Thank you again for the opportunity to comment on this draft report and we look forward 10
        working with you on other issues as we both strive to improve FEMA.




                              NPSC Preparedness for Large Scale Disasters
 


                                                   Page 16
 

Appendix C
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Acting Assistant Administrator, Disaster Assistance Directorate
                      FEMA Audit Liaison (Project Code 08-134-EMO)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                          NPSC Preparedness for Large Scale Disasters
 


                                            Page 17
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
